                                        NATIONAL SCIENCE FOUNDATION
                                         OFFICE OF INSPECTOR GENERAL
                                           OFFICE OF INVESTIGATIONS

                               CLOSEOUT MEMORANDUM

FO: AIGI      File Number: I96120062                                           Date: 28 March 2002

Subject: Closeout Memo                                                     1           Page 1 of 1


     There was no closeout written at the time this case was closed. The following information was
     extracted from the file in conformance with standard closeout documents.

     Our office was informed that the subjects' were alleged to have committed employee embezzlement,
     theft, and fraud. The university2 notified us that the subjects, who were on the University's
     administrative staff, embezzled money from NSF and other agency3grants. We conducted a joint
     investigation with DCIS. The case was declined criminally. The University returned $17,707.28,
     the amount of NSF funds embezzled.

     Accordingly this case is closed.




               Prepared by:                      Cleared by:
             Agent:           Attorney:        Supervisor:
  Name:
